OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/BOLIVIA’S
INTEGRATED HEALTH
COORDINATION PROGRAM
(PROCOSI)
AUDIT REPORT NO. 1-511-07-010-P
JULY 23, 2007




SAN SALVADOR, EL SALVADOR
                  Office of Inspector General




July 23, 2007

MEMORANDUM

TO:                 USAID/Bolivia Director, Michael Yates

FROM:               Acting Regional Inspector General/San Salvador, Jerry Hintz /s/

SUBJECT:            Audit of USAID/Bolivia’s Integrated Health Coordination Program (PROCOSI)
                    (Report No. 1-511-07-010-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and we have included the Mission’s comments in
their entirety in Appendix II.

The report includes 14 recommendations for your action. Based on your comments and the
documentation provided, we consider that final action has been taken on Recommendations Nos.
5 and 8 and that management decisions have been reached on Recommendation Nos. 1 and 10
through 13. When the Mission provides target dates for implementing the recommendations,
management decisions for the Recommendation Nos. 2 through 4 and 6, 7, and 9 can be
recorded. A management decision can be recorded on Recommendation No. 14 when the Mission
reaches a firm decision on the amount to be reprogrammed. Determination of final action for the
report recommendations will be made by the Audit Performance and Compliance Division
(M/CFO/APC) upon completion of the proposed corrective actions.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit, 3110; APO, AA 34023
Tel: (503) 2501-2999 Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 4

Audit Objectives ................................................................................................................ 7

Audit Findings ................................................................................................................. 8

Did USAID/Bolivia’s Integrated Health Coordination
Program (PROCOSI) achieve planned results?................................................................ 8

     Project Activities Were Delayed ............................................................................... 10

     Lack of Monitoring and Evaluation
     System ...................................................................................................................... 14

     Performance Indicators Should be
     Streamlined .............................................................................................................. 16

Did USAID/Bolivia’s reporting on PROCOSI program
activities provide stakeholders with complete and accurate
information on the progress of the activities and the results
achieved?........................................................................................................................ 17

Other Matters .................................................................................................................. 18

     Standard Audit Provision Was Omitted
     From Sub-Awards ..................................................................................................... 18

     Mission Did Not Follow ADS Guidance
     to Ensure That Reported Data Was
     Reliable .................................................................................................................... 19

     Forward Funding Limitations Were
     Exceeded ................................................................................................................. 23

Evaluation of Management Comments ....................................................................... 24

Appendix I – Scope and Methodology ........................................................................ 25

Appendix II – Management Comments ....................................................................... 28

Appendix III – List of PROCOSI Members................................................................... 35
SUMMARY OF RESULTS
USAID/Bolivia’s Integrated Health Coordination Program (PROCOSI) is a network of 33
non-governmental organizations (NGOs). The network was ranked by ForeignAid
Ratings as one of the best NGO networks in Latin America. PROCOSI has been a
USAID/Bolivia partner in implementing health programs for almost 20 years (see page
5.)

The Regional Inspector General/San Salvador, as part of its fiscal year (FY) 2007 audit
plan, performed this audit to determine whether USAID/Bolivia’s PROCOSI program
achieved planned results and whether USAID/Bolivia’s reporting on PROCOSI provided
stakeholders with complete and accurate information on the progress and the results
achieved (see page 7.)

The social and political context and changes to USAID/Bolivia health strategy resulted in
delays to the implementation of the Mission’s health activities. The PROCOSI program
underwent a significant realignment in 2006 in order to assure its consistency with
shared Bolivian and the United States governments’ strategic priorities. Consequently
PROCOSI has not yet made any contribution to achieving the planned results of the
USAID/Bolivia community health project. In spite of setbacks, PROCOSI, with the
assistance of the Manoff Group, had made progress in the implementation of the
community health project and in improving health program administration and
institutional sustainability. (See page 8.) The audit identified opportunities to improve
program performance by speeding implementation of project activities, developing a
monitoring and evaluation system, and streamlining performance indicators (see pages
10 to 17.)

The audit found that USAID/Bolivia’s reporting on the activities of PROCOSI did not
provide stakeholders with complete information on the progress of the activities. We
could not assess the accuracy of reported results related to PROCOSI because no
quantifiable results were achieved or reported by USAID/Bolivia (see page 17.)

In addition, three other matters came to our attention during the course of the audit. The
audit found that the Mission had not ensured that PROCOSI’s sub-awards include the
standard provisions (see page 18), had not verified reported results achieved by other
USAID/Bolivia health partners (see page 19), and had not complied with forward funding
requirements exceeding its forward funding limitation by $12.7 million (see page 23.)

This report contains the following 14 recommendations for USAID/Bolivia:

   •   Develop and implement a plan for improving coordination between PROCOSI
       and the Manoff Group (see page 13.)

   •   Obtain from PROCOSI an implementation plan that takes into account all the key
       participants, identifies risks and constraints, and puts forward a complete project
       implementation timeline, including a baseline survey, census, facility preparation,
       delivery and installation of equipment, sensitization campaigns, training of site
       personnel, and a monitoring and evaluation plan (see page 14.)



                                                                                        1
   •   Coordinate with PROCOSI to address the financial realities of the Government
       of Bolivia’s administration and make the necessary adjustments within the
       project budget to ensure that the housing improvement program can be
       completed as planned (see page 14.)

   •   Assist the sub-grantees to clarify with their sub-grant partners their respective
       roles and responsibilities to ensure smooth project implementation (see page
       14.)

   •   Reduce the scope of the activities to be implemented by sub-grantees at the
       outset of the project, perhaps leaving the possibility of adding additional activities
       once basic health activities are underway (see page 14.)

   •   Ensure that PROCOSI, with technical assistance from the Manoff Group has
       established a monitoring and evaluation system for the program (see page 15.)

   •   Ensure that PROCOSI, with technical assistance from the Manoff Group,
       provides members and sub-grantees with training and guidance on the
       monitoring and evaluation system (see page 16.)

   •   Obtain evidence that PROCOSI has reduced the number of performance
       indicators for the project (see page 17.)

   •   Ensure that PROCOSI provides sub-grantees with training on how to accurately
       collect, maintain, and report performance data (see page 17.)

   •   Ensure that PROCOSI amend its sub-agreement documents to include the
       standard provisions (see page 18.)

   •   Require its partner Socios Para El Desarrollo to confirm the validity of the
       reported information with contributing partners prior to reporting the data to
       USAID/Bolivia (see page 22.)

   •   Conduct data quality assessment on its health indicators as required by USAID
       guidance (see page 22.)

   •   Put procedures in place to provide supervision to its Cognizant Technical Officers
       to ensure that they periodically sample and review their implementing partners’
       data for completeness, accuracy and consistency (see page 23.)

   •   Reprogram excess unexpended obligations totaling $12.7 million to program
       areas where the funds can be used within the current fiscal year (see page 23.)

USAID/Bolivia generally agreed with the findings and recommendations in our draft audit
report. The Mission planned to implement all of the recommendations, and the Mission
has made specific plans for implementing Recommendation Nos. 1 and 10 through 13,
and final action has been taken on Recommendation Nos. 5 and 8. The Mission’s
comments also provided some additional information on the complex country context
and further clarified the reasons for the implementation delays. The Mission’s comments
also amplified the rationale for and impact of changes to the political and social content


                                                                                           2
of the Mission’s strategy. Finally, the Mission suggested a change to Recommendation
No. 3 which we have made.

We believe that USAID/Bolivia’s comments and planned actions are responsive to the
report recommendations. We have also modified the final report to reflect several of the
clarifications included in the Mission’s comments. Our evaluation of management
comments is provided on page 24. USAID/Bolivia’s comments in their entirety are
included in Appendix II.




                                                                                      3
BACKGROUND
Bolivia, a nation of 9 million, is one of the poorest countries in the Western Hemisphere.
The majority of the population is of indigenous ancestry, and Bolivia has three official
languages: Spanish, Quechua, and Aymara. Almost 40 percent of the population lives in
rural areas.

Bolivia has the second highest level of child and maternal mortality in Latin America and
the Caribbean. However, there have been some important improvements in child and
maternal health status from 1998 to 2003 as shown in Table 1 below:

Table 1: Selected Health Indicators

                                                                        1998            2003
    Indicator
    Infant mortality rate per 1,000 live births                          82               54

    Percentage of children having received the third dose               49%             71%
    of a combined vaccine for diphtheria, hepatitis B,
    tetanus, and other childhood diseases

    Maternal mortality rate per 100,000 live births                     390 1            208


There are large differences between urban and rural areas in terms of health outcomes.
For example, the infant mortality rate of 44 per 1,000 live births in urban areas increases
to 67 per 1,000 in rural areas. Chronic malnutrition affects 18 percent of children less
than five years old in urban areas but 37 percent in rural areas.

Bolivia is at a critical point in controlling its HIV/AIDS epidemic. The overall prevalence
of HIV/AIDS is less than one percent but it is significantly higher among high-risk
populations. Moreover, all five neighboring countries have higher prevalence rates and
the risk of cross-border transmission remains a concern. Other related health problems
that afflict the country include endemic diseases like Chagas, 2 malaria, and tuberculosis.

The USAID/Bolivia health strategy is designed to improve the health of Bolivians and
address the gap between the health status of urban and rural indigenous populations.
The strategy utilizes a three-pronged approach:

1. Promote behavioral changes and community empowerment.


1
     The most recent maternal mortality rate was taken from the Demographic and Health Survey
     of 1994, because no data was collected in 1998.
2
     The Chagas disease is a parasitical illness spread by an insect that lives in poorly constructed
     houses: e.g., in the cracks of adobe walls or underneath straw roofs. It is a major health
     problem in Latin America, where as many as 11 million people are infected.


                                                                                                   4
2. Expand the delivery of quality, high-impact health services through health networks.

3. Strengthen institutional      capacity   with   respect   to   sustainable   health   care
   management.

The strategy focuses on strengthening the presence of the state at the municipal level of
the public health care system, empowering communities to play meaningful roles in
health program planning and implementation, and overcoming intercultural barriers to
health care access and quality. The approach contributes to conflict prevention and
promotes a more stable environment in which health care systems can respond more
effectively to the needs of the communities they serve.

Programa de Coordinación en Salud Integral (PROCOSI) has been an important partner
in implementing USAID/Bolivia’s health strategy since 1988 and has collaborated with
the Ministry of Health, particularly in serving rural areas with the least health service
coverage. PROCOSI, a network of 33 U.S. and local health and community service non-
governmental organizations, (NGOs; see list in Appendix III), provides health-related
services through inter-institutional coordination, strengthening of member organizations
and advocating policies that influence the health and the quality of life of the Bolivian
population. PROCOSI’s work improves the health of the population by providing support
to programs to educate women in sexual and reproductive health, mobilize communities
against Chagas disease, and provide basic primary health care services.

PROCOSI was founded in 1988 when USAID/Bolivia had seven to nine different child
survival grant recipients. USAID/Bolivia and its grant recipients decided that it would be
more efficient and effective to have one single point of contact and interface for program
implementation. PROCOSI was created in order to (1) alleviate the administrative
burden for USAID/Bolivia, (2) share best practices, and (3) improve the quality and scale
of service provision. Later, PROCOSI expanded its mission to become an integrated
health network. In order to give PROCOSI a solid financial foundation, in 1995,
USAID/Bolivia and the Ministry of Health provided PROCOSI with an endowment fund
totaling $8 million. The endowment fund of PROCOSI provided an annual stream of
income that covered overhead expenses.

In mid-2006, USAID/Washington sponsored a study to examine NGO networks. This
study evaluated and compared 11 NGO networks in Latin America to determine the key
organizational development and programmatic traits that make an effective, transparent,
and sustainable NGO network. PROCOSI received a rating of 8.1 out of 10 for large
NGO networks as shown in Table 2 below. 3

Table 2: Rating Components Summary

    Component                    PROCOSI     Average
    Socio-Economic Impact          8.5         7.9
    Institutional Development      9.6         8.0
    Financial Efficiency           7.2         7.2

3
     ForeignAid Ratings LLC, “Organizational Development Traits of Successful NGO Networks: A
     Framework to Evaluate the Sustainability, Effectiveness, and Accountability of NGO
     Networks,” September 11, 2006.



                                                                                           5
    Component                     PROCOSI       Average
    Accountability and
    Transparency                      7.8          6.7
    External Relations                7.4          6.7
    PROCOSI weighted score            8.1          7.4

Overall, PROCOSI had the third highest score among 11 NGO networks. PROCOSI
ranks higher than average for four of the five components. However, for both
accountability and transparency, and external relations PROCOSI had the following
weaknesses: (1) program expenses of the network are only 54 percent of the budget
while administrative costs consume 46 percent of the budget; (2) PROCOSI depends
mainly on one main donor, USAID; (3) there is limited focus on monitoring and
evaluation; (4) PROCOSI does not have a functioning website; and (5) the evaluators
experienced difficulty in getting a needed financial analysis.

Under previous cooperative agreements with PROCOSI, USAID/Bolivia provided $35
million in financing. Under the current five-year $13 million agreement signed on May 31,
2005 4 , USAID/Bolivia provides assistance to PROCOSI to improve health outcomes
through the implementation of a community-based health project in 40 rural
municipalities in four of the nine departments of Bolivia through sub-grants to members
of the PROCOSI network. The project will be implemented at the local level to build
capacities of volunteer health promoters in an integrated health services package
including: birth preparedness, community-based growth promotion, promotion of
breastfeeding and oral rehydratation use, referrals for antenatal care, severe illness
including malaria and tuberculosis, and obstetric/newborn complications. The project will
also include additional activities on education and empowerment of women PROCOSI
will finance eight sub-grants to member organizations to cover 40 municipalities.

PROCOSI will also implement a program in three departments of Bolivia to contain and
reduce the spread of the Chagas disease by building or improving 7,400 houses.
PROCOSI also provides technical assistance and training and sub-grants to the network
to strengthen the institutional capacity of its member organizations to provide integrated
health services by increasing their capacity to provide better coverage and services.




                                                     A vinchuca, the insect causing the Chagas
                                                     disease. Photograph provided by Esperanza
                                                     Bolivia, Chuquisaca, Bolivia.

Since August 26, 2005, USAID/Bolivia has also financed a contract with the Manoff
Group to provide technical assistance and capacity building to PROCOSI, its members,
4
     In November 2006 the total funding for this agreement was increased to $18 million.


                                                                                            6
and sub-grantees. The technical assistance supports (1) strengthening the management
and institutional capacity of PROCOSI, coordinating and implementing an integrated,
standardized package of community-based health interventions and implementing an
institutional approach to monitoring and evaluation; and, (2) strengthening the technical
capacity of the PROCOSI network to improve health program administration and
institutional sustainability.

During the period covered by this audit, October 2005 through March 2007,
USAID/Bolivia obligated $9.7 million and expended $2.7 million in support of
PROCOSI’s health-related activities, including the technical assistance provided by the
Manoff Group.

AUDIT OBJECTIVES
As part of its fiscal year 2007 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•   Did USAID/Bolivia’s Integrated Health Coordination Program (PROCOSI) achieve
    planned results?

•   Did USAID/Bolivia’s reporting on the activities of PROCOSI provide stakeholders
    with complete and accurate information on the progress and the results achieved?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       7
AUDIT FINDINGS
Did USAID/Bolivia’s Integrated Health Coordination Program
(PROCOSI) achieve planned results?
After the December 2005 presidential elections in Bolivia, agreements reached with
previous GOB administrations were reexamined, leading to a realignment of
USAID/Bolivia’s health strategy. As a result of this realignment, a decision was made to
focus on a different set of geographical areas and required additional planning and
coordination, thus PROCOSI had not yet completed any activities that would directly
contribute to achieving the planned results of the Mission’s community health project.
(These issues are discussed in the following report section.) However, with assistance
from the Manoff Group, PROCOSI has completed several startup activities as of March
31, 2007, as follows:

•    Developed a standard package of health services, and the methodology for the
     community health project implementation.

•    Produced the materials for startup training.

•    Conducted baseline surveys.

•    Selected seven of eight sub-grantees.

•    Conducted two of eight startup training courses and trained 39 persons.

•    Produced a video (and a manual) on the Chagas disease and prevention strategies
     to be aired nationally.

With regard to institutional sustainability, the contractor assisted PROCOSI to achieve
the following:

•    Registered as a U.S. non-profit organization. (Also, PROCOSI is in the process of
     obtaining 501(c)(3) status, which will make donations to PROCOSI tax deductible in
     the U.S. and open new fund-raising opportunities for PROCOSI.)

•    Conducted an institutional assessment of all members in order to provide them with
     specific training addressing their needs.

•    Developed standard procedures concerning PROCOSI governance to reinforce the
     principles of transparency, equality, and quality.

One of the success stories of USAID/Bolivia through PROCOSI has been to provide
support to a unique public-private partnership which has, through housing improvements
and community education, succeeded in reducing the level of vinchuca 5 infestation and
the risk of Chagas transmission among poor rural populations in Bolivia. The

5
    Vinchuca is the insect that causes the Chagas disease.


                                                                                      8
Government of Bolivia, through its National Program for Housing Subsidies, provided
partial funding for the purchase of essential construction materials such as cement,
roofing tiles, and lime. Municipal governments contributed a share of the cost as well.
Communities contributed in-kind resources which were locally available, such as stones,
sand, and timber. Also, families joined together to provide the labor to make the
necessary improvements to the housing foundations, walls, and roofs, which eliminated
breeding places for vinchucas and created physical barriers to re-infestation. The
Ministry of Health supported the effort by providing periodic free insecticide spraying of
the homes and surrounding grounds.




                                                      A house in Icla after renovation by Esperanza
                                                      Bolivia’s Chagas prevention housing improvement
A house in the municipality of Icla, Bolivia before   program. Photograph taken by a USAID/Bolivia
being renovated. Photograph taken by Esperanza        employee during the OIG’s visit to Chuquisaca,
Bolivia in October 2006.                              Bolivia on April 23, 2007.

With USAID/Bolivia funding, the PROCOSI NGO network has provided partial funding
for essential construction materials and complementary community education and
construction training to support the housing improvement program. Building local
awareness of how Chagas disease is transmitted, how communities can work together
to prevent disease transmission, and how communities can implement effective
monitoring mechanisms to promptly detect and control re-infestations are key elements
to ensuring the long-term impact of housing improvements. The NGO network also
played a critical role in organizing and coordinating resources from the various partners
and ensuring quality work in the rehabilitation of infested homes.

In the participating communities, the housing improvement program reduced the
transmission of Chagas disease, the frequency of cases of child diarrhea and the
frequency of child respiratory diseases. Concurrently, the housing improvement
program improved hygiene-related behaviors, the use of wood as a cooking resource,
and the overall quality of life.

While no results have been achieved with respect to the Mission’s health indicators,
PROCOSI has made progress towards the implementation of the community health
project. The following sections of the audit report discuss the reasons why results were
not achieved and identifies opportunities to improve project implementation and
achievement of program objectives.




                                                                                                    9
Project Activities Were Delayed

Summary: USAID Automated Directive System (ADS) 200.3.2.1 encourages USAID to
manage for results and states that USAID should assist in implementation by signaling
when impact was less than anticipated and identifying possible problems. According to
the contract, the Manoff Group was to expedite the award of sub-grants in support of a
community health project lead by PROCOSI. However, twenty-one months elapsed
before seven of eight envisaged sub-grants were awarded and implementation of two
sub-grants had begun. Many factors contributed to the slow implementation of the
project including a complex country context which compelled the Mission to change its
health strategy and targeted project areas, poor coordination between PROCOSI and
the Manoff Group, the lack of an implementation plan, and the complexity of the
mechanisms for implementing project activities. Consequently, PROCOSI did not
contribute to USAID/Bolivia’s program results during FY 2006 and FY 2007 to date.

ADS 200.3.2.1 states that USAID should manage for results and should improve
implementation by signaling when impact is less than anticipated and identifying
possible problems. The Manoff Group was to provide PROCOSI with technical
assistance in an effort to achieve a rapid startup of project activities. As stated in the
contract, the assistance would be delivered expeditiously to the PROCOSI health team
so that PROCOSI could award grants as early as possible in calendar year 2006.
PROCOSI’s agreement states that $9.2 million will be provided as sub-grants to member
organizations that will implement the project and PROCOSI’s workplan indicates that
sub-grants will be issued early in FY 2006.

The first request for proposals for sub-grants was sent in May 2006; almost one year after
the agreement was signed. However, in mid-2006, the Mission was compelled to change
its rural health strategy and to focus on 48 municipalities in remote areas of Bolivia. As a
result, on August 1, 2006 the process of selecting recipients of project sub-grants was
stopped.

By October 2006, USAID/Bolivia had revised its health strategy and had identified 48
targeted municipalities. The factors that were considered in identifying geographic areas
included the political environment, the presence of health partners, the incidence of
tuberculosis, the perceived willingness of the local governments and communities to
participate in the program, and the density of the indigenous population.

A second request for proposals was issued on November 6, 2006. Fourteen proposals
were received and 7 of 8 sub-grants to be awarded were signed on February 23, 2007. In
total, 21 months passed between the signing of the agreement and the awarding of sub-
grants in support of project implementation. At the end of March 2007, only two sub-
grants that support the community health project had received startup training and
$38,000 had been spent in support of sub-grants. During this period, PROCOSI did not
make any contribution to the results of the health program of USAID/Bolivia.

According to the agreement between USAID/Bolivia and PROCOSI, $9.2 million (71
percent of the total budgeted amount) should be spent on eight sub-grants. To date,
PROCOSI has awarded seven of eight sub-grants for a total amount of $6.5 million
representing 70 percent of the total amount to be allocated.



                                                                                        10
The most important factors contributing to the delays in implementing the community
health project activities includes:

•   A complex country context and a change of USAID/Bolivia health strategy. The
    PROCOSI program underwent a significant realignment in 2006 in order to assure its
    consistency with shared Bolivian and the United States governments’ strategic
    priorities. With the election of a new national government in December 2005, many
    of the agreements reached with the prior Government of Bolivia administrations
    during the design/award of the project had to be re-examined, leading to a
    realignment of the USAID/Bolivia health strategy. Successful realignment was
    achieved through delicate negotiations with the Ministry of Health. As part of this re-
    alignment, the Mission and the Ministry of Health agreed to close the bilateral project
    for the health sector. Although ultimately successful, these negotiations produced a
    significant but unavoidable delay in the original implementation schedule for the
    PROCOSI program. In addition, the new GOB administration decided to shift the
    focus of some of its donor support, bringing new donor financing and technical
    assistance to the regions that USAID/Bolivia had planned to support through the
    PROCOSI project. To avoid duplication of effort, USAID was compelled to re-define
    the geographic focus of its programs after PROCOSI had already undertaken
    baseline assessments and issued the first Request for Applications for sub-grants in
    the original geographic areas covered under the project. The shift to new geographic
    areas ensures that USAID resources are reaching needy areas of the country that
    are not receiving significant support from other donors. It also protects against any
    inappropriate commingling of USAID resources with those of other donors that would
    make appropriate attribution impossible. Although the priority actions of the
    PROCOSI basic health package remain, the shift in the targeted geographic areas
    required adjustment to the integrated health package and the repetition of some
    activities including the baseline survey and the procurement of NGO services.
    Addressing these issues, although creating significant implementation delays, was
    unavoidable.

•   A change in the health strategy of the Bolivian Government. During the last few
    months of calendar year 2006 and in early 2007, the Ministry of Health (MOH)
    national and regional programs were restructured resulting in a change not only to
    the health programs but also to the personnel responsible for the programs. Two of
    many changes were the introduction of a universal health insurance and the manner
    in which the MOH will implement its nutrition program. These changes, and changes
    to the MOH indicators, interventions, and management of the child nutrition program
    further delayed the implementation of the integrated health project with PROCOSI.

•   A lack of coordination between PROCOSI and the contractor as well as their inability
    to agree upon specific technical assistance needed. The contractor and PROCOSI
    did not develop their work plans jointly because PROCOSI had not finished its work
    plan. According to the contractor, several activities were not achieved because of a
    misunderstanding with PROCOSI over the type of technical assistance to be
    provided.

•   The lack of an operational implementation plan. Neither PROCOSI nor the Manoff
    Group developed an implementation plan that included the steps necessary to
    ensure rapid implementation of the project. For example, the lack of the necessary



                                                                                        11
    materials had prevented the sub-grantees from conducting the census in their
    respective communities.     There were efforts to coordinate the work of all sub-
    grantee organizations, but there was not a comprehensive implementation plan to
    ensure rapid implementation of project activities. Without a well-defined
    implementation plan, PROCOSI was not able to clearly plan, coordinate, and monitor
    the implementation of the project by the member organizations.

•   The lack of PROCOSI members’ involvement in project design and implementation.
    According to the Manoff officials, they had limited direct relations with the member
    organizations and PROCOSI has had minimal interaction with its members regarding
    project design and implementation.

•   The complexity of the project implementation arrangements. There are 11 sub-
    grantees and each sub-grant will be implemented by at least two PROCOSI
    members and two sub-grants will be implemented by as many as four members.
    Moreover, sub-grantee officials said that the project areas are remote and unknown
    to most of the sub-grantees. We interviewed 9 of the 11 sub-grantees and all of
    them mentioned the challenges of working in new, remote areas as well as defining
    the role and responsibilities of each partner. Only one of seven groups of sub-
    grantees had signed an agreement with the sub-grant partners. In the other cases,
    no agreement had been made between members implementing the projects to
    define their role and responsibilities. Also, all the sub-grantees were concerned
    about retaining personnel to work in remote areas. Three sub-groups of grantees
    interviewed said that five project staff decided to leave after receiving the startup
    training because they did not want to work in the project area. The linkages between
    the sub-grantees of PROCOSI, the concerned communities, and government health
    facilities are also complex. Through John Snow International and Engender Heath,
    USAID/Bolivia is providing assistance to the MOH health facilities in improving the
    quality of their services in municipalities where the integrated health project will be
    implemented. The sub-grantees are not health service providers and do not
    dispense health services. The sub-grantees rely on government health facilities to
    deliver health services through a referral system. Thus, the success of the project
    depends largely on the relationships between health facility and sub-grantee
    personnel and the community. These relationships are essential to the project’s
    success. At the same time, the basic health package that the project will deliver
    includes not only health services but also education and women empowerment
    components. As a result, the sub-grantees are required not only to implement the
    standard health package but also other activities that Mission officials said are time
    consuming and expensive to implement.

•   PROCOSI required the contractor to follow a lengthy process for hiring foreign
    consultants even though the consultancies had been included in the work plan and
    approved. In several instances, the planned visits of consultants had to be
    postponed by PROCOSI, in some cases up to five times, delaying project activities.

•   Other factors. The high turnover of PROCOSI personnel, flooding in two of the four
    project departments, and delays in identifying the basic health services to be
    delivered. Among the 34 staff members at PROCOSI at the end of our audit period,
    only 12 had been there since June 2005. Also, only 12 of the 20 employees that had




                                                                                        12
    joined PROCOSI prior to June 2005, were still employed as of March 2007 (60
    percent).

In addition to the more narrow health-related activities described above, the housing
component through Esperanza Bolivia in one municipality of Chuquisaca, designed to
prevent Chagas disease has been significantly delayed. The target was to improve 800
houses during FY 2006, but no houses were completed during FY 2006. With financial
assistance from USAID/Bolivia, 354 houses were completed by April 24, 2007. The
second phase of the program was still on hold because the Government of Bolivia had
not contributed promised funds. The startup activities were completed but because of a
lack of funding 446 houses could not be improved. According to Esperanza Bolivia, the
amount of funds needed totaled $700,000. The most important reasons for the delay
include:

•   The new Government of Bolivia did not make planned contributions.

•   Flooding in project areas, difficult access to some communities, and the limited
    number of vehicles with which to transport materials on rough dirt roads and a lack of
    available labor.

•   The increased price of roofing materials and cost of transporting materials to project
    areas.

•   The length of time required for a family to build its house. The project contributes a
    standard amount of funds towards materials, design, and construction. However, the
    beneficiary is responsible for contributing labor to construct the house. According to
    Esperanza Bolivia, it takes an average of 14 months for the beneficiary to
    improve/build his house in normal conditions because the beneficiary also has to
    work his land and earn money to be able to survive during the construction.
    Beneficiaries are not able to obtain a loan to finance the construction of their house
    due to a lack of collateral.

By the end of our audit period, the Mission and PROCOSI were in the process of
evaluating the proposals for building or improving an additional 7,400 houses.
Considering the above-mentioned delays and the length of time required for housing
construction by beneficiaries, it might be prudent for PROCOSI to accept a relatively
large number of proposals so that each sub-grantee selected to implement this new
component will have relatively few houses to complete. Implementation will need to start
as soon as possible to complete the goal of constructing or improving 7,400 additional
homes by the end-date of the program scheduled for May 2010.

As a result of the delays and problems mentioned above, the Mission did not report any
results related to the agreement with PROCOSI in FY 2006 and the progress achieved
in FY 2007 has been limited.

    Recommendation No. 1: We recommend that USAID/Bolivia, in coordination
    with PROCOSI and the Manoff Group, develop and implement an action plan to
    improve coordination between PROCOSI and the Manoff Group.




                                                                                       13
   Recommendation No. 2: We recommend that USAID/Bolivia obtain from
   PROCOSI an implementation plan that takes into account all the key participants,
   identifies risks and constraints, and puts forward a complete project
   implementation timeline, including a baseline survey, census, facility preparation,
   delivery and installation of equipment, sensitization campaigns, training of site
   personnel, and a monitoring and evaluation plan.

   Recommendation No. 3: We recommend that USAID/Bolivia, in coordination
   with PROCOSI, address the financial realities of the Government of Bolivia’s
   administration and make the necessary adjustments within the project budget
   to ensure that the housing improvement program can be completed as
   planned.

   Recommendation No. 4: We recommend that USAID/Bolivia, in cooperation with
   PROCOSI, assist the sub-grantees to clarify with partner sub-grantees their
   respective roles and responsibilities to ensure smooth project implementation.

   Recommendation No. 5: We recommend that USAID/Bolivia, in coordination with
   PROCOSI and the Manoff Group, reduce the scope of the activities to be
   implemented by sub-grantees at the outset of the project, perhaps leaving the
   possibility of adding additional activities once basic health activities are
   underway.

Lack of Monitoring and
Evaluation System

Summary: The contract and grant documents and program work plans state that
PROCOSI, with technical assistance from the contractor, will develop and establish a
monitoring and evaluation (M&E) system for the benefit of PROCOSI and its member
organizations and related training. However, PROCOSI did not develop or implement an
M&E system. A modification to the USAID/Bolivia rural health strategy, changes in
targeted geographic areas, and the efforts of PROCOSI to select grantees as well as a
lack of PROCOSI M&E personnel precluded, in part, the establishment of a monitoring
and evaluation system for the program. As a result, USAID/Bolivia and PROCOSI could
not fully measure the efficiency and effectiveness of the program and improve
implementation.

The contract with the Manoff Group states that technical assistance will be provided to
the PROCOSI network to develop and implement an institutional approach to program
monitoring and evaluation. It states that the contractor will build the capacity of the
community health program, the program’s sub-grantees and PROCOSI members to not
only collect relevant and meaningful information, but also, and most importantly, to
analyze, report, and use information in strengthening the program and to manage,
implement, monitor, and evaluate the integrated health project. In addition, the work
plans of the contractor and PROCOSI include the development and implementation of a
program monitoring system and related training to sub-grantees and member
organizations.




                                                                                         14
Although the contractor provided some technical assistance, PROCOSI has not yet
established a monitoring and evaluation system as envisaged in award documents. By
the end of the audit period, PROCOSI, with the assistance from a local consultant, had
designed a software program to assist PROCOSI and its members to collect and report
information to USAID/Bolivia. However, the consultant’s contract was terminated in
March and PROCOSI staff members expressed concerns about bugs and fixes that will
be needed to fine tune the program before it can be used. Also, although the software
has been designed the indicators have to be set up and data entered to evaluate
whether or not the software can be placed in operation.

A study on the PROCOSI network 6 states that PROCOSI had limited focus on
monitoring and evaluation and that M&E was not emphasized beyond its reporting
function. The study also states that, while PROCOSI produced qualitative and some
quantitative M&E reports, the evaluations were mainly for reporting purposes with limited
integration into the strategic planning process. At the time of our visit, PROCOSI had no
monitoring and evaluation department, there was only one person formally involved in
M&E activities who was also in charge of program management and thus, only able to
devote a fraction of his time to M&E activities.

During our visit and interviews of member organizations, we found that no training on
M&E, or related assistance, was provided to the member organizations by PROCOSI
during fiscal years 2006 or 2007. The members were spending a lot of time and effort
collecting and analyzing the data required by USAID/Bolivia. We also found that the
collected data for other USAID partners included transcription errors and was not
accurate (see finding on page 19.)

Several delays in implementing the project, including the need to disseminate a second
request for proposals, and the lack of coordination between PROCOSI and the Manoff
Group negatively impacted the development of an M&E system. Manoff Group needed
PROCOSI to develop an M&E system. However, PROCOSI had other priorities, perhaps
more important given the delays in starting project activities, which took precedence over
developing the M&E system. Examples include evaluating proposals, conducting a
baseline survey, and conducting an institutional assessment of its member
organizations. As a result USAID/Bolivia and PROCOSI could not fully determine
whether the project was achieving its objectives and improve implementation. Without a
monitoring and evaluation system, PROCOSI cannot measure the efficiency and
effectiveness of the program.

In summary, PROCOSI did not have an M&E system in place and its member
organizations did not receive needed technical assistance on monitoring and evaluation.
The longer the program continues to be implemented without an M&E system in place,
the less likely that the program will be a success.

     Recommendation No. 6: We recommend that USAID/Bolivia ensure that
     PROCOSI, with technical assistance from the Manoff Group, establishes a
     monitoring and evaluation system for the program.



6
    ForeignAID Ratings, Programa de Coordinación en Salud Integral (PROCOSI) Rating Report,
    July 2006.


                                                                                        15
   Recommendation No. 7: We recommend that USAID/Bolivia ensure that
   PROCOSI, with technical assistance from the Manoff Group, provides the
   members with training and guidance on the monitoring and evaluation system.

Performance Indicators
Should Be Streamlined
Summary: USAID guidance states that more information is not necessarily better, since
it is costly to collect information. The contract with the Manoff Group states that the
project should collect relevant and meaningful information to monitor the project.
However, the sub-grants listed a total of 90 separate performance indicators and the
logical framework included an additional 24 indicators, some of which are unnecessary.
Measuring such a large number of performance indicators increases workload and
reduces overall project efficiency. The Manoff Group has only provided limited technical
assistance to PROCOSI in developing performance indicators because PROCOSI has
been preoccupied with other tasks that need to be completed to begin implementation of
the community health project. As a result, project efficiency may be negatively
impacted.

ADS Section 203.3.2.1.d notes that “more information is not necessarily better because
it markedly increases the management burden and cost to collect and analyze data.”
According to the contract with the Manoff Group, the contractor was responsible for
building the capacity of the program’s sub-grantees and PROCOSI members to collect
relevant and meaningful information and, most importantly, to analyze, report on, and
use the information in strengthening the program. The contract emphasizes that it is
more important to have a handful of meaningful indicators than to have a long list of
indicators. The contract also states that part of the Manoff Group’s assistance to
PROCOSI was to ensure that PROCOSI fulfilled its responsibility to develop indicators
with which to monitor the project. In spite of the emphasis placed on identifying a small
number of key indicators with which to monitor the project, the sub-awards state that the
sub-grantees will monitor the impact of the project by reporting on 90 indicators, as
shown in Table 3 below.

Table 3: Number of Indicators and Frequency of Measurement

Frequency                      Number of Indicators
                              In Sub-       In Logical
                              Awards       Framework
Before and after project         49             0
Annually                         17              3
Quarterly                        7              11
Monthly                          17             10
Total                            90             24


In addition, the three data collection instruments included in the project’s logical
framework also require the sub-grantees to report on 52 indicators of which 24 indicators
were not required in the sub-awards. Needless to say that the increase in the number of
indicators has made the design of a functional monitoring system a daunting task,
especially when it comes to data collection, data entry and consolidation.


                                                                                      16
Eight of ninety indicators are derived from calculations based on reported data and these
can be eliminated with no loss of information to the project. Also, one indicator for
tuberculosis (“percentage of persons that complete treatment”), cannot be calculated
because the data collection instrument does not include the number of persons that
completed treatment or the total number of TB cases notified. There is no indicator that
measures whether a child with diarrhea had been given oral rehydration therapy. The
indicator for measuring reproductive health does not permit the calculation of couple-
years of protection or identify the type of contraceptives being used. Another weakness
is that three indicators in the Mission Performance Management Plan (PMP) (number of
houses improved to reduce Chagas disease, number of people trained, and the number
of couple-years of protection) were not included in the list of 90 indicators.

Nine of eleven sub-grantees visited during the course of the audit expressed concerns
about monitoring so many indicators. They also mentioned the need to receive training
to ensure that the indicators are properly understood and assessed correctly. The
PROCOSI staff member responsible for the data collection also expressed concerns
regarding the need for such a large number of indicators.

According to the Manoff Group, only limited technical assistance was provided to
PROCOSI in support of developing the performance indicators because PROCOSI was
focused on reviewing the proposals of member organizations and developing the
standard health package and baseline survey. The consultant assisting PROCOSI had
suggested a list of 36 indicators, some of which were not in PROCOSI’s list of indicators.

The number of indicators to be reported on and analyzed directly impacts workloads,
and reduces project efficiencies. Efforts should be made to reduce the number of
indicators and to simplify data collection instruments and ensure that the data collected
will be consistent with the performance indicators with which the sub-grantees will report
on the impact of the project.

   Recommendation No. 8: We recommend that USAID/Bolivia obtain evidence
   that PROCOSI has reduced the number of performance indicators for the
   program to a reasonable number.

   Recommendation No. 9: We recommend that USAID/Bolivia ensure that
   PROCOSI provides sub-grantees training on how to accurately collect, maintain,
   and report performance data.

Did USAID/Bolivia’s reporting on PROCOSI program activities
provide stakeholders with complete and accurate information on
the progress of the activities and the results achieved?
USAID/Bolivia’s reporting on its health program did not provide stakeholders with
complete information on the progress and results achieved by PROCOSI because the
Mission did not report the problems with project implementation, the challenges faced in
expending allocated funds, or the fact that PROCOSI had not achieved any results to
date. We could not assess the accuracy of PROCOSI reported results related to child
health and infectious diseases because no quantifiable results were achieved or
reported to USAID/Bolivia.


                                                                                       17
Other Matters

During the course of the audit, three other matters that require corrective action by
USAID/Bolivia came to our attention. First, PROCOSI sub-awards did not comply with
ADS guidance. Second, although PROCOSI did not achieve any quantifiable results
related to child health and infectious diseases prior to our audit, we reviewed
PROCOSI’s most recent quarterly progress reports as well as reports on the results
achieved by other USAID/Bolivia partners. We found that the Mission did not follow ADS
guidance to ensure that reported data concerning its other health partners was reliable.
Finally, the Mission did not comply with forward funding requirements. These issues are
discussed in the following pages.

Standard Provisions
Were Omitted from Sub-Awards
Summary: ADS guidance indicates that the standard provisions should be incorporated
into all sub-agreements. However, PROCOSI did not include the standard provision on
accounting, audits, and records in its sub-awards. Although USAID/Bolivia reviewed the
sub-awards, Mission staff did not notice the omission. As a result, misunderstandings
over record-keeping and audit requirements may arise and proper accountability may
not be maintained. Also, it would be difficult for USAID/Bolivia or PROCOSI to enforce
these requirements on the sub-grantees in case of non-compliance.

ADS 303.2d states that it is the Agreement Officer’s responsibility to ensure that awards
contain all the appropriate terms and conditions necessary for proper administration and
implementation of the program, including all reporting requirements which would include
the mandatory standard provisions. Also, PROCOSI’s agreement requires that standard
provision C-2 (Accounting, Audits and Records), in its entirety, be incorporated into all
sub-awards with non-U.S. organizations. It also states that sub-awards with U.S.
organizations shall include that they are subject to the audit requirements contained in
OMB Circular A-133; however, the sub-awards did not contain this provision.

The auditors’ review of PROCOSI’s sub-grants signed in February 2007 indicated that
the sub-grant documents did not include the standard provisions as required by the
ADS. The sub-grant documents state that Annexure 3 includes USAID standard
provisions. However, Annexure 3 contained the OMB Circular A-122 and not the
standard provisions.

Although USAID/Bolivia staff reviewed the sub-awards, they did not notice that the
standard provisions were not included. As a result, it would be difficult for USAID/Bolivia
or PROCOSI to enforce these requirements on the sub-grantees in case of non-
compliance. Also, misunderstandings over record-keeping and audit requirements may
arise and proper accountability may not be maintained.

   Recommendation No. 10: We recommend that USAID/Bolivia ensure that
   PROCOSI amend its sub-agreement documents to include the standard
   provisions.




                                                                                        18
Mission Did Not Follow ADS Guidance to
Ensure That Reported Data Was Reliable
Summary: According to USAID guidance, performance data should be precise and
reliable. It also suggests that periodic data quality reviews be completed to ensure the
completeness, accuracy, and consistency of data. However, USAID/Bolivia did not
periodically verify the quality of data and complete a data quality assessment. Instead,
the Mission relied on secondary sources of information. As a result, reported figures
were inaccurate and misleading; this could lead to less than optimal management
decisions.

ADS 203.3.5.2 states that the Operating Unit and Strategic Objective (SO) Teams
should be aware of the strengths and weaknesses of their data and to what extent the
data integrity can be trusted to influence management decisions. The ADS mandates
that data reported to USAID/Washington for Government Performance and Results Act
(GPRA) reporting purposes or for reporting externally on Agency performance must
have had a data quality assessment at some time within the three years before
submission. Additionally, USAID’s Performance Management Toolkit supplementary
guidance states that the goal of assessing data from implementing partners and
secondary sources is to be aware of data strengths and weaknesses and the extent to
which data can be trusted when making management decisions and reporting. It further
states that a practical approach to planning data quality assessments includes an initial
data quality assessment and periodic reviews for completeness, accuracy and
consistency. As stated in ADS 202.3.6.1, assessing performance refers to whether the
outputs produced by the contractor or grantee are timely and are of acceptable quality.
The USAID Guidebook for Managers and Cognizant Technical Officers CTOs) on
Acquisition and Assistance states that CTOs are charged with the responsibility of
ensuring that data reported by implementing partners is accurate and supported.

A review of PROCOSI’s progress report for the quarter ending March 31, 2007 indicated
that the report did not convey a complete and accurate picture of the progress made
towards achieving the planned outputs. Some deficiencies noted are listed below:

Table 4: PROCOSI Quarterly Report for the Period of January to March 2007

         Reported Activity             Reported            Documented Status
                                        Status
Coordinate activities between the     Completed   Only 2 of 8 sub-grants have received
various actors to ensure smooth                   training and conducted coordination
project implementation.                           activities.
NGOs that were assisted in            Completed   No training or assistance provided for
improving financial sustainability.               financial sustainability.
Regional Office in Tarija rented.     Completed   The office space had not been rented.

A monitoring and evaluation system    Completed   The system was not operational and the
was designed.                                     person that designed the system was no
                                                  longer working for PROCOSI.
10 Community drugstores               Completed   No drugstores established.
established.




                                                                                           19
         Reported Activity             Reported                  Documented Status
                                        Status
8 sub-grantees selected/contracted    Completed         Only 7 of 8 have been selected.
to implement the community health
project
Educational materials produced and    Completed         Only the materials related to startup
reproduced with distribution plan.                      activities have been produced. The
                                                        materials to conduct the census and
                                                        implement other project components
                                                        had not been produced by the end of our
                                                        audit period. Also, the distribution plan
                                                        was still being revised and partners were
                                                        awaiting these materials for project
                                                        implementation.

As mentioned above, the project had planned to open ten community pharmacies.
PROCOSI reported that this activity was achieved because a plan to define the products
to be sold or how it would be implemented was prepared. However, none of the
pharmacies had been established. Also, the progress report did not include any
progress made towards implementing the component related to the Chagas prevention-
related housing improvement program, even though the request for proposals and letters
of interest were received.

These problems described above are symptomatic of PROCOSI not having the capacity
to measure and report on progress accurately. PROCOSI was negatively impacted by a
lack of guidance and on-site mentoring by the USAID/Bolivia CTO who did not assess
the validity of the information contained in the progress reports during field visits or
meetings. The CTO’s attempts to ensure the quality of the information were insufficient.
Because the information reported by PROCOSI was incomplete and unsupported,
USAID/Bolivia could not reliably determine if program activities were meeting their
objectives or addressed related problems. Finally, the lack of quality information could
lead to less than optimal funding or programmatic decisions.

In addition, we found that the information reported by USAID/Bolivia in its FY 2007
Congressional Budget Justification, and its Performance Management Plan (PMP)
concerning other health partners’ achievements during FY 2006 were inaccurate as
shown in Table 5 below.

Table 5: Comparison of Reported and Documented Results for FY 2006

           Document/Indicator                Reported         Documented         Percent Over
                                              Results           Results        (Under) Reported
Congressional Budget Justification
 Percentage of malnourished children           34%                 39%               (13%)
FY 2006 PMP
 Number of individuals receiving voluntary    1,410               1,827               (23%)
 counseling and testing for HIV/AIDS
  Percentage of individuals that completed    95.2%               80.1%               19%
  TB treatment under DOTS
 Number of houses improved to reduce              255              190                34%
 Chagas disease



                                                                                               20
Several specific examples of inaccurate or incomplete results follow:

•    The number of individuals tested for HIV/AIDS and that received post-test counseling
     was under-reported by 23 percent because some months were not reported and
     some persons tested with rapid tests had not been included in the reports.

Table 6: HIV/AIDS Reported and Documented Results in FY 2006

      Organization          Reported       Documented       Percent Over (Under)
                                                                 Reported
    CIES La Paz                    101              238                     (58%)
    Sexsalud                       592              755                     (22%)
    PROSALUD (3                    717              834                     (14%)
    centers)
    Total                        1,410            1,827                          (23%)

•    In terms of tuberculosis, the results reported were inconsistent, unsupported and
     inaccurate. The number of new infectious TB patients in direct observed therapy
     short-course (DOTS) 7 in the 2005 cohort was under-reported by 38 percent and the
     percentage of patients cured was over reported by 19 percent because the data had
     not been verified. Moreover, the total number of new infectious TB patients
     diagnosed in FY 2006 by PROSALUD was over reported by 41 percent.

Table 7: Tuberculosis Reported and Documented Results in FY 2006

                   Result                    Reported      Documented         Percent Over
                                                                            (Under) Reported
    New infectious TB patients in DOTS              377              607               (38%)
    Number of patients cured                        359              486               (26%)
    Cure rate of new infectious TB
    patients in DOTS                             95.2%             80.1%                 19%
    Number of new infectious TB patients
    diagnosed by PROSALUD in FY 2006                274              194                 41%

•    With regard to children with adequate growth, the Mission did not calculate the
     percentage of children with adequate growth correctly. To arrive at the percentage
     of children with adequate growth, the number of children monitored each month was
     summed and then averaged for the year. However, because the same children were
     repeatedly measured, over time, the monthly figures should not have been simply
     summed. Therefore, instead of reporting a rate of 34 percent for children
     malnutrition, the Mission should have reported 39 percent.




7
    Infectious TB patients are those that are pulmonary sputum smear positive.


                                                                                          21
                                              A baby receiving a vaccine at a PROSALUD clinic
                                              in Tarija, Bolivia. Photograph taken by a
                                              USAID/Bolivia employee, during the OIG’s visit on
                                              April 30, 2007.

The Mission reported that 255 houses were improved during FY 2006. However the
PMP indicator was defined as the number of houses improved to reduce Chagas. The
number of houses improved to reduce Chagas was 190, a difference of 34 percent. Also,
no reference was made to the target of 1,500 houses, which was not achieved.

Socios Para el Desarrollo, the partner organization responsible for validating the data,
did not have a control review process and did not confirm the accuracy of the information
reported by communicating with the contributing partner. For example, Socios reported
that the cure rate for new infectious TB patients for John Snow International (JSI) was
99.1 percent because of a transcription error. If Socios had confirmed this information by
communicating with JSI, they would have found out that the actual rate was 78 percent.

Also, the CTO did not conduct periodic testing and verification of the quality of the
information they were being provided with and relied too heavily on secondary sources
without verifying the quality and completeness of the data. Also, the Mission had not
conducted a data quality assessment (DQA) on three reported performance indicators
as required by USAID guidance. In addition, the Mission was without a Health Officer for
more than six months, and was busy with the review of the new rural health strategy.
The lack of periodic review and an appropriate DQA on reported program performance
results data contributed to the weakness of the data collection, analysis, and reporting
procedures. Periodic verification of performance data provided by the partners would
have allowed the CTO to recognize that some of the information was inaccurate and
incomplete. Without data quality assessments and periodic reviews decision makers can
draw erroneous conclusions regarding the performance of their programs leading to
improper management decisions and the reporting of incorrect information.

Recommendation No. 11: We recommend that USAID/Bolivia require Socios Para El
Desarrollo to confirm the validity of the information with contributing partners prior to
reporting the data to USAID/Bolivia.

Recommendation No. 12: We recommend that USAID/Bolivia develop and implement
time bound procedures to conduct data quality assessments on its health indicators as
required by USAID guidance.




                                                                                             22
   Recommendation No. 13: We recommend that USAID/Bolivia put procedures in
   place to provide supervision to its Cognizant Technical Officers to ensure that
   they sample and review their implementing partners’ data for completeness,
   accuracy and consistency.

Forward Funding
Limitations Were Exceeded
Summary: USAID guidance states that missions should not forward fund obligations for
more than 12 months beyond the end of the fiscal year in which the obligation takes
place. Based on its expected expenditures for FY 2007, USAID/Bolivia’s health-related
strategic objective exceeded this requirement by $12.7 million, or 46 percent of
obligations as of September 30, 2006. This occurred mainly because of delays in the
implementation of the community health project, which caused actual expenditures to fall
short of those planned. As a result, $12.7 million of funding that could have been used
by USAID/Bolivia to fund other activities during the current year remained idle.

ADS Section 602.3.2 states that program managers should not forward fund obligations
for more than 12 months beyond the end of the fiscal year in which the obligation takes
place. However, as of September 30, 2006, USAID/Bolivia exceeded this requirement in
funding its health-related strategic objective. In FY 2006, unexpended obligations
amounted to $27.6 million while the USAID/Bolivia projected expenditures for FY 2007
were $14.9 million, leaving $12.7 million in obligations that exceed the forward funding
limitations.

Table 8: Unexpended Obligations by Year of Obligation

      Pipeline                  Amount       Percent
2002 and before                      $10,034   0.04%
2003                                 $87,949   0.32%
2004                              $3,708,563  13.43%
2005                              $7,340,872  26.59%
2006                             $16,457,617  59.62%
Total                            $27,605,034 100.00%

Furthermore, of the total $27.6 million in unexpended obligations as of September 2006,
11.1 million or 46 percent of the total amount relates to obligations occurring in 2005 to
as far back as 1999. The non-compliance with USAID forward funding requirements
occurred mainly because of the change of the Mission health strategy and resulting
delays in implementing the related community health program, which caused the
program to be implemented more slowly than expected. As a result, excess funds
totaling $12.7 million that could be used by USAID/Bolivia to fund activities during the
current fiscal year remain idle.

   Recommendation No. 14: We recommend that USAID/Bolivia reprogram excess
   unexpended obligations totaling $12.7 million to program areas where the funds
   can be used within the current fiscal year.




                                                                                       23
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Bolivia generally agreed with the findings and recommendations in our draft
report. The Mission plans to implement all of the recommendations in the report.

The Mission did not believe that it could implement Recommendation No. 3 as stated in
the draft audit report. Based on the Mission’s comments, we modified Recommendation
No. 3 to address the Mission’s concerns.

In response to Recommendation No. 5, USAID/Bolivia reduced the scope of the program
by requesting PROCOSI to eliminate the women’s empowerment activity and other
additional activities from the implementation agreements of the sub-grantees. In addition,
the latest budget realignment submitted by PROCOSI did not include these activities.
Therefore, we consider that final action has been taken on this recommendation.

With regard to Recommendation No 8, with technical assistance from the Manoff Group,
PROCOSI has revised the performance indicators list and reduced the number of indicators
from 90 to 49. Of these, 23 will be monitored and reported on by sub-grantees either
quarterly or annually. The other 26 will be obtained through specific surveys, such as the
baseline survey. The reduction in the number of indicators eliminates the excessive
reporting requirements of PROCOSI. We reviewed the Mission’s new indicators and found
them to be sufficient to address the recommendation. Accordingly, final action has been
taken on this recommendation.

We believe that USAID/Bolivia’s comments and planned actions are responsive to the
report’s recommendations. Based on the information provided in the Mission’s
comments, management decisions have been reached for Recommendation No. 1 and
Nos. 10 through 13. Management decisions for Recommendation Nos. 2, 3, 4, 6, 7 and
9 can be recorded when the Mission provides target dates for implementing the
recommendations. For Recommendation No. 14 on reprogramming excess obligations
totaling $12.7 million, a management decision can be recorded when USAID/Bolivia has
reach a decision on the amount to be reprogrammed.

In its comments, USAID/Bolivia also provided some additional information to amplify the
rationale and impact of changes to the political and social content on the Mission’s
strategy. The Mission suggested that a description of this process which unfolded in a
complex country context be included in the report in order to clarify the reasons for the
implementation delays. We have modified the final report to reflect several of the
clarifications included in the Mission’s comments. The comments in their entirety are
presented in Appendix II.

A determination of final action with regard to the measures taken by the Mission to address
the recommendations will be made by the Audit Performance and Compliance Division
(M/CFO/APC) upon completion of the proposed corrective actions.




                                                                                        24
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador (RIG/SS) conducted this audit in
accordance with generally accepted government auditing standards. As part of its fiscal
year 2007 audit plan, RIG/SS designed this audit to answer two audit objectives: 1)
determine whether PROCOSI’s program achieved planned results, and 2) determine if the
Mission reported complete and accurate information to stakeholders on PROCOSI’s
program.

In planning and performing the audit, we obtained an understanding of and assessed the
Mission’s controls related to the management of its health program and the reporting of
performance results.      The management controls identified included performance
management plans; the Mission’s annual self-assessment of management controls
through its annual Federal Managers Financial Integrity Act; cognizant technical officers’
field visits; reviews of progress reports; and regular contact with USAID/Bolivia’s
partners.

We performed our fieldwork at USAID/Bolivia, and at the offices of PROCOSI, the
Manoff Group, John Snow International, and Socios Para El Desarrollo which is the
USAID/Bolivia partner responsible for data collection. In addition, we conducted
fieldwork at PROCOSI's member organizations’ offices and at the offices of sub-
grantees in three departments of Bolivia: Santa Cruz, Tarija, and Chuquisaca. Fieldwork
was performed from April 16 to May 5, 2007.

PROCOSI is comprised of a network of 33 organizations. For the implementation of the
community health project funded by USAID/Bolivia, PROCOSI plans to carry out
activities in 40 municipalities of Bolivia in 4 of the 9 departments. As of the date of our
audit, PROCOSI had signed seven of the eight sub-grants among its member
organizations. We judgmentally selected a sample of 14 member organizations to visit
in three of the four departments where the integrated health project will be implemented
to review a sample of local and U.S nongovernmental organizations and PROCOSI sub-
grantees. Our sample included 9 of the 11 sub-grantees responsible for implementing
the integrated health project.

Table 9: Sampled Sites

Type of Member                               Universe    Sample
U.S. PROCOSI Members                               11         5
Local PROCOSI Members                              22         9
Sub-Grantees on the Integrated Health
Project                                             11         9

During the audit period August 28, 2005 through March 31, 2007, USAID/Bolivia
obligated $9.7 million and expended $2.7 million for PROCOSI-related activities.




                                                                                        25
Methodology
To answer the audit objectives, we visited and conducted interviews at USAID/Bolivia,
and the offices of the PROCOSI, its partner organizations, the Manoff Group and other
USAID/Bolivia partners. We also collected and analyzed health-related data on HIV, TB,
nutritional status and the Chagas prevention housing improvement program. We
reviewed documentation produced by USAID/Bolivia, PROCOSI, the Manoff Group, and
PROCOSI member organizations including awards and sub-awards, general program
documents, work plans, progress reports, relevant studies, and documents concerning
the program’s health-related indicators.

Because PROCOSI did not report any results, we selected the indicators to review for
the other USAID health partners from the Mission's Performance Management Plan, the
Operational Plan and the Congressional Budget Justifications. The PMP included 13
health-related indicators and we selected four of them for verification. No current
information was available for three other indicators: under-5 child mortality, the total
fertility rate and the contraceptive prevalence rate. The information was not available
because the most recent National Demographic and Health Survey was completed in
2003 and the next survey will not be conducted until 2008. We also did not include four
family planning indicators because they had been audited in a prior audit. 8 We did not
include the indicator that assessed the number of children under age one who received
the third dose of pentavalent vaccine because the partner responsible for more than 80
percent of the associated results no longer exists and hence we could not verify the
information. We also did not review the information related to the number of persons
that had been trained on health-related subjects because of the large number of partners
that contributed to the results and because of time constraints.

To validate the accuracy of results reported by other USAID partners, we evaluated the
following performance indicators:

1.    Number of individuals receiving voluntary counseling and testing for HIV/AIDS.
2.    Percentage of individuals that completed TB treatment under DOTS.
3.    Number of houses improved to reduce the Chagas disease.
4.    Percentage of children under age two with adequate growth.

To validate performance results we compared reported to documented results for a
judgmentally selected sample of results submitted by implementing members. Our
testing consisted of tracing health-related data contained in the members’ reports to the
health facility registers, laboratory registers, and other relevant source documents. We
verified the results of the PROCOSI housing program by tracing reported results to
related construction records and visiting a sample of 18 houses improved in five of the
seven communities of the municipality of Icla in the Chuquisaca department. With
regard to HIV/AIDS data, we reviewed the data of the three partners and five health
centers that contributed to the results achieved by reviewing the laboratory registers of
HIV tests conducted and the registers that recorded the number of persons that had
received post-test counseling. With regard to tuberculosis, we reviewed the data of both
partners contributing to the results. We reviewed supporting information from JSI and
visited 8 of the 22 PROSALUD clinics with a TB program in Santa Cruz, Tarija and La
8
     Audit of USAID/Bolivia’s Family Planning Program, Audit Report No. 1-511-07-005-P dated
     January 22, 2007.


                                                                                         26
Paz. These three departments represented 90 percent of PROSALUD total TB cases in
FY 2006. With regard to the number of children with adequate growth, we reviewed the
data for three of the four partners that represented 83 percent of all the children
measured during FY 2006.

To determine whether performance results were accurately reported, we used a five
percent accuracy threshold considering the reported results and the results attested to
by our audit.




                                                                                    27
                                                                            APPENDIX II



MANAGEMENT COMMENTS
                                                       UNITED STATES GOVERNMENT
                                                                      Memorandum
                                                               HSOT-GRAL-007/2007


DATE:          June 26, 2007

REPLY TO:      Michael Yates, Mission Director, USAID/Bolivia

TO:            Timothy E. Cox, RIG/San Salvador

SUBJECT:       USAID/Bolivia’s response to the draft audit report of the Integrated Health
               Coordination Program – PROCOSI (Report No. 1-511-07-010-P)


Under cover of this memorandum, USAID/Bolivia transmits its response to the subject
draft audit report, as requested by Lyne Paquette by email on June 1, 2007. We
appreciate the opportunity to review and comment on the draft report before it is formally
issued.

USAID/Bolivia has supported PROCOSI for nearly two decades. As noted in the audit
report, a recent external evaluation showed that this NGO network ranks among the
three most successful networks in the Latin American region. USAID/Bolivia and
PROCOSI have developed a successful partnership that has led to significant
improvements in the health status of women and children in underserved rural and peri-
urban communities. The partnership has also contributed to the longer-term goal of
building the capacity of civil society organizations to expand access to well-managed
and high-quality health care throughout the country.

USAID/Bolivia congratulates the RIG team that undertook this audit. In general, we are
pleased with the results and acknowledge that the set of recommendations provided by
the auditors will help us to improve the impact of the program in the future. The
recommendations will guide USAID/Bolivia and PROCOSI in rectifying implementation
delays and strengthening the monitoring and evaluation of the program.

We have organized our comments into three sections. Section A is intended to amplify
the rational and impact of changes to the political and social content on the Mission’s
strategy. The PROCOSI program underwent a significant realignment in 2006 in order to
assure its consistency with shared GOB and USG strategic priorities. It is suggested
that a description of this process which unfolded in a complex country context be
included in the report in order to further clarify the reasons for the implementation
delays. It also includes a suggestion to modify the wording of Recommendation No. 3 to
ensure that it is within the Mission’s management control. Section B describes our plan
for closing selected audit recommendations. And finally, Section C requests the closure
of two audit recommendations with the corresponding rationale for the proposed closure.




                                                                                       28
                                                                               APPENDIX II


As requested, we are providing an original signed copy of this memorandum as well as
an electronic version.

Section A: General Comments

1. Implementation Context:

  USAID/Bolivia appreciates the comments by the RIG in the draft audit report but
  requests that a greater explanation of the critical political and social context for this
  program, and that implementation was delayed in large part for reasons beyond our
  management control. In addition to the comments contained in the draft report we
  request that the report also incorporates the following additional information:

   •   Building on past successes and lessons learned, USAID/Bolivia designed this
       five year project (2005 -2010) in 2004 and awarded a Cooperative Agreement
       with PROCOSI in June, 2005. We then awarded a contract with The Manoff
       Group in August 29, 2005 to provide technical support to PROCOSI.
   •   With the election of a new national government in December 2005, many of the
       agreements reached with prior GOB administrations during the design/award of
       the project had to be re-examined, leading to a realignment of the USAID/Bolivia
       health strategy. Successful realignment was achieved through delicate
       negotiations with the Ministry of Health. Although ultimately successful, these
       negotiations took six to eight months, producing a significant but unavoidable
       delay in the original implementation schedule for the PROCOSI program.
       o As part of this re-alignment, the Mission and the Ministry of Health agreed to
           close the bilateral project for the health sector. The project had provided a
           solid avenue for ongoing coordination with the Minister and her highest level
           advisors. While the closure of the bilateral project did not lead to a
           breakdown in the relationship with the Ministry of Health, it did introduce
           delays and complications in the negotiation of the strategy realignment.
       o The new GOB administration decided to shift the focus of some of its donor
           support, bringing new donor financing and technical assistance to the regions
           that USAID/Bolivia had planned to support through the PROCOSI project. To
           avoid duplication of effort, USAID was compelled to re-define the geographic
           focus of its programs. This occurred between March and July, 2006, after
           PROCOSI had already undertaken baseline assessments and issued the first
           Request for Applications for sub-grants in the original geographic areas
           covered under the project. USAID/Bolivia instructed PROCOSI to cancel the
           Request for Applications and to re-do the baseline surveys once the new
           geographic areas were approved by the Ministry.
       o The shift to new geographic areas ensures that USAID resources are
           reaching needy areas of the country that are not receiving significant support
           from other donors. It also protects against any inappropriate commingling of
           USAID resources with those of other donors that would make appropriate
           attribution impossible. Addressing these issues, although creating significant
           implementation delays, was unavoidable.

2. Comment on Recommendation No. 3

In the draft audit report, Recommendation No. 3 states: We recommend that
USAID/Bolivia, in coordination with PROCOSI, develop a plan to ensure that the


                                                                                              29
                                                                              APPENDIX II


agreed-upon contributions from the Government of Bolivia are received in a timely
manner so that the housing improvement program may be completed as planned.

Comment: While USAID/Bolivia and PROCOSI can develop a plan to advocate for the
timely release of GOB contributions for the housing program, there is no guarantee that
these funds will ultimately be received. Based on our and ample other donor experience
in other sectors, it is increasingly unlikely that the GOB will have the financial resources
to release funds in a timely manner. We suggest that this recommendation be re-
worded to remove the word “ensure”. The recommendation should recommend that
USAID and PROCOSI address the financial realities of the GOB administration and
make necessary adjustments within the project budget to ensure that the housing
improvement program can be completed as planned. A recommendation to this effect is
within the Mission’s management control.

Section B: Proposed actions to close specific audit recommendations

USAID/Bolivia has developed a plan to implement a series of actions in order to address
each of the specific audit recommendations. The actions are described below.

Recommendation No. 1 We recommend that USAID/Bolivia, in coordination with
PROCOSI and the Manoff Group, develop and implement an action plan to improve
coordination between PROCOSI and the Manoff Group.

In coordination with PROCOSI and The Manoff Group, USAID/Bolivia is implementing
the following actions to address and close the recommendation:

   1. In response to a request from the Health Team, the Mission’s Acquisition and
      Assistance Office (AAO) has put both awards under the management of a single
      CTO beginning in May 2007. This will facilitate internal coordination of the
      projects.
   2. USAID/Bolivia will organize on a biweekly basis joint meetings of PROCOSI and
      The Manoff Group on a regular basis to promote better coordination and
      consensus about key management and technical matters.
   3. Based on the verbal recommendation of the head auditor during the exit
      conference with USAID/Bolivia, The Manoff Group Chief of Party and the
      PROCOSI Project Director have been removed from their positions effective
      June 1, 2007. As per Modification No. 6 to the contract with Manoff, a new Chief
      of Party has been named and will assume the role on August 27, 2007.
      Meanwhile, USAID and PROCOSI have agreed on an interim Acting Project
      Director, pending the identification of a permanent one through a full and open
      search process.

Recommendation No. 2. We recommend that USAID/Bolivia obtain from PROCOSI an
implementation plan that takes into account all the key participants, identifies risks and
constraints, and puts forward a complete project implementation timeline, including a
baseline survey, census, facility preparation, delivery and installation of equipment,
sensitization campaigns, training of site personnel, and a monitoring and evaluation
plan.

USAID/Bolivia requested PROCOSI to develop an implementation plan that includes:



                                                                                          30
                                                                            APPENDIX II


1. Relevant benchmarks and achievement/completion dates.
2. Implementation timeline.

Recommendation No. 3. We recommend that USAID/Bolivia, in coordination with
PROCOSI, develop a plan to ensure that the agreed-upon contributions from the
Government of Bolivia are received in a timely manner so that the housing improvement
program may be completed as planned.

As mentioned in Section A, USAID cannot guarantee third-party compliance. We will
support PROCOSI’s ongoing negotiations with the GOB for increased counterpart
funding. In addition, in order to ensure that the planned results are obtained, we are
following the auditor’s suggestion and have requested PROCOSI to propose a budget
realignment to help finance the remaining houses in Icla. PROCOSI is currently working
on the analysis for budget realignment.

Recommendation No. 4. We recommend that USAID/Bolivia, in cooperation with
PROCOSI, assist the sub-grantees to clarify with partner sub-grantees their respective
roles and responsibilities to ensure smooth project implementation.

The USAID/Bolivia Health Team has formally requested the clarification of roles and
responsibilities of PROCOSI’s sub-awardees. In order to achieve this PROCOSI has
agreed to:

   1. Carry out clarification meetings with the sub-awardees.
   2. Develop a detailed matrix of roles and responsibilities with each of the sub-
      awardees.
   3. Obtain signed letters from each sub-awardee detailing the roles and
      responsibilities required for the successful implementation/reporting on the
      project.

Recommendation No. 6. We recommend that USAID/Bolivia ensure that PROCOSI,
with technical assistance from the Manoff Group, establishes a monitoring and
evaluation system for the program.

USAID/Bolivia instructed PROCOSI to create and adequately staff a Monitoring and
Evaluation (M&E) Unit. With support from Manoff, this team will be in charge of
developing and implementing an adequate M&E system for the project.

USAID/Bolivia will work with PROCOSI and the Manoff Group to ensure that this unit is
properly operating and quality data is collected, analyzed and made available on each of
the indicators.

Recommendation No. 7. We recommend that USAID/Bolivia ensure that PROCOSI,
with technical assistance from the Manoff Group, provides the members with training
and guidance on the monitoring and evaluation system.

USAID/Bolivia instructed PROCOSI, with help from Manoff, to design and carry out a
training plan on monitoring and evaluation systems for the sub-awardees.

Recommendation No. 9. We recommend that USAID/Bolivia ensure that PROCOSI
provides sub-grantees training on how to accurately collect, maintain, and report


                                                                                      31
                                                                            APPENDIX II


performance data.

For the closure of the recommendation USAID/Bolivia has instructed the Manoff Group
to:

1. In coordination with PROCOSI, develop a detailed training plan for all the sub-
   awardees.
2. Provide the training as part of the technical assistance under their contract.

Recommendation No. 10. We recommend that USAID/Bolivia ensure that PROCOSI
amend its sub-agreement documents to include the standard provisions.

All the sub-award agreements signed by PROCOSI include in Annex C the standard
provisions as sub-part of the sub-recipient commitments. PROCOSI is now working on
completing and updating the standard provisions as requested by the Mission in AAO
524/2007, dated June 22, 2007. PROCOSI must submit a revised version of Annex C
no later than July 11, 2007.

Recommendation No. 11. We recommend that USAID/Bolivia requires Socios para el
Desarrollo to confirm validity of the information with contributing partners prior to
reporting data to USAID/Bolivia.

In November 2006, at the time RIG concluded the family planning audit, the
USAID/Bolivia Health Team decided to enhance its performance management
(monitoring and evaluation) plan (PMP) to ensure better compliance with ADS 203.3.5.2
requirements on data quality. Thus, USAID requested Socios para el Desarrollo (the
partner in charge of the PMP data collection, analysis, monitoring and evaluation) to
make the necessary adjustments to its work plan to ensure adequate validation of the
data received from the different reporting partners.

Socios is in process of implementing the adjustments required to complete this effort,
including:

•   Expanding the M&E team from two to four full-time people. This team is responsible
    for gathering, evaluating, quality control, and reporting the PMP data. They will also
    be responsible of providing feedback on the data collected/submitted to Socios to the
    partners. Socios will also provide more training on data collection, data quality and
    related subjects.
•   The M&E team includes professionals with statistics, epidemiology and audit
    background.
•   The M&E team will develop a data quality monitoring and evaluation plan.
•   The M&E team will work with software development specialists to enhance the data
    gathering system capacities.
•   The USAID CTO will coordinate with Socios and oversee the process to ensure that
    Socios complies with USAID standards and requirements.

To date, the personnel has been selected and hired, some new tools have been
developed and others improved, the monitoring and validation plan has been prepared
and its implementation will start in July. USAID/Bolivia considers that these actions
being implemented by Socios address the recommendation and will permit the Mission



                                                                                         32
                                                                               APPENDIX II


adequate data quality assessments, including periodic reviews for completeness,
accuracy, and consistency as required by ADS 202.3.6.1.

Recommendation No. 12. We recommend that USAID/Bolivia develop and implement
time bound procedures to conduct data quality assessment on its health indicators as
required by USAID guidance.

In addition to the actions mentioned above for Recommendation No. 11, the
USAID/Bolivia Health Team will implement for all its projects a checklist to conduct data
quality assessment and to promote and monitor compliance. This checklist will be
mandatory in every CTO project site visit, will be kept on file, and will be an excellent aid
in identifying areas of potential vulnerability within the program.

Recommendation No. 13. We recommend that USAID/Bolivia put procedures in place to
provide supervision to its Cognizant Technical Officers to ensure that they sample and
review their implementing partners’ data for completeness, accuracy, and consistency.

In addition to the actions mentioned above for Recommendations No.11 and No.12, the
USAID/Bolivia Health Team has implemented a follow-up matrix that will include every
recurrent relevant task required from CTOs. The matrix will be reviewed monthly by the
Health Office Director with every CTO.

To enhance the team monitoring and evaluation capabilities, USAID/Bolivia Health Team
will hire external monitoring and evaluation training for its CTOs.

The USAID/Bolivia Health Team is working on developing tools to better link the strategy
with the different agreements and to establish annual targets and the main set of actions
required to achieve these targets.

Recommendation No. 14. We recommend that USAID/Bolivia reprogram excess
unexpended obligations totaling $12.7 million to program areas where the funds can be
used within the current fiscal year.

With the election of a new national government in December 2005, many of the
agreements reached with prior GOB administrations during the design/award of the
project had to be re-examined, leading to a realignment of the USAID/Bolivia health
strategy. Successful realignment was achieved through delicate negotiations with the
Ministry of Health. Although ultimately successful, these negotiations took six to eight
months, producing a significant but unavoidable delay in the original implementation
schedule for different programs.

USAID/Bolivia has made continuous efforts to work with our partners to accelerate
project burn rates now that the adjusted strategy has been launched. We have also
reprogrammed some funds with our contracts and agreements toward short-term, high-
impact results. USAID/Bolivia Health Team and PROCOSI have developed an action
plan to accelerate burn rates to achieve desired results. And finally, we are proposing
adjustments to the FY 2007 Operational Plan to ensure that forward funding guidelines
are followed.

All the actions being taken will permit USAID/Bolivia to comply with ADS forward funding
guidance as FY 2007 funds are obligated.


                                                                                           33
                                                                           APPENDIX II




Section C: Recommendations that can be closed

Recommendation No. 5. We recommend that USAID/Bolivia, in coordination with
PROCOSI and the Manoff Group, reduce the scope of the activities to be implemented
by sub-grantees at the outset of the program, perhaps leaving the possibility of adding
additional activities once basic health package activities are underway.

USAID/Bolivia has officially requested that PROCOSI eliminate the women’s
empowerment and other additional activities from the implementation agreements with
the sub-awardees. The latest budget realignment submitted by PROCOSI does not
include the women’s empowerment component and other additional activities.

Recommendation No. 8. We recommend that USAID/Bolivia obtain evidence that
PROCOSI has reduced the number of performance indicators for the program to a
reasonable number.

With the technical assistance from The Manoff Group, PROCOSI has carefully revised
the performance indicators list and reduced the number of indicators from 90 to 49. Of
these, 23 will be monitored and reported by the sub-awardees, either quarterly or
annually. The other 26 will be obtained through specific surveys, such as the baseline.
This reduction in the number of indicators eliminates the excessive reporting
requirements on PROCOSI. Please find attached as Annex 1 the revised list of
performance indicators.




                                                                                      34
                                                                                    Appendix III


List of PROCOSI Members
                                     Member       Participating in PROCOSI’s Integrated
               Member                 Since                    Health Project
     U.S.
                                                 Yes, two awards for 10 municipalities in Tarija,
 1   ADRA                             2003               Chuquisaca and Santa Cruz
 2   Ayuda en Action                  2003                            No
 3   CARE                            Founder            Yes, for 6 municipalities in Tarija
 4   Catholic Relief Services        Founder                          No
 5   Christian Children Fund (CCF)    2003                            No
     Food for the Hungry
 6   International                   Founder                            No
 7   Louvain Development              2003               Yes, for 4 municipalities in Beni
 8   Plan International              Founder                            No
 9   Project Concern Intl            Founder          Yes, for 7 municipalities in Santa Cruz
10   Save the Children               Founder    Yes, for 3 awards in 7 municipalities in Santa Cruz
11   World Vision                     2003     Yes, for 2 awards in 10 municipalities in Santa Cruz
     Local
     Asociación de Programas de
12   Salud del Area Rural (APSAR)     1992                             No
     Asociación de Promotores de
13   Salud Rural (APROSAR)            1992              Yes, for 4 municipalities in Beni
14   CARITAS                         Founder                         No
     Centro de Investigaciones de
15   Energia y Población (CIEP)       2003                             No
     Centro de Multiservicios
16   Educativos (CEMSE)               1995                             No
17   CEPAC                            1994     Yes, for 2 awards in 7 municipalities of Santa Cruz
18   CIES                             1994                             No
19   COMBASE                          2003                             No
     Consejo de Salud Rural
20   Andino (CSRA)                   Founder   Yes, for 2 awards in 7 municipalities in Santa Cruz
21   CRECER                           1988                             No
22   Esperanza Bolivia               Founder            Yes, for 6 municipalities in Tarija
23   Foundation Cuerpo de Cristo      1994                             No
24   IPTK                             2003                             No
25   PROAGRO                          2003                             No
26   PROMUJER                         1995                             No
27   PROSALUD                         1994                             No
28   Quipus Cultural Foundation       1992                             No
29   SACOA                            1994                             No
30   SEXSALUD                         2003                             No
31   Universidad NUR                  1994     Yes, for 2 awards in 7 municipalities of Santa Cruz
32   Foundation San Gabriel           1994                             No
33   SERVIR                           1994                             No




                                                                                               35
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
